No. 19-825

 

 

IN THE

Supreme Court of the United States

FEDERAL TRADE COMMISSION,
PETITIONER

Vv.

CREDIT BUREAU CENTER, LLC AND MICHAEL BROWN

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,980 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 28, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
